Report No. D-2009-045              January 23, 2009




       Security Guard Services Contract at
          Naval Weapons Station Earle
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
CDR                           Contract Discrepancy Report
FAR                           Federal Acquisition Regulation
FSCM                          Facilities Support Contract Manager
IG                            Inspector General
MO                            Maintenance and Operation Manual
NAC                           National Agency Check
NAVFAC                        Naval Facilities Engineering Command
NWS                           Naval Weapons Station
OPNAVINST                     Office of the Chief of Naval Operations Instruction
QA                            Quality Assurance
QAE                           Quality Assurance Evaluator
QAP                           Quality Assurance Plan
                                        INSPECTOR GENERAL
                                       DEPARTMENT OF DEFEN SE
                                           400 ARMY NAVY DR IVE
                                    AR LI NGTON, VIRGI NIA 22202-4704




                                                                                      January 23, 2009

    MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                      TEC HNOLOGY, AND LOGISTICS
                   NAVAL INSPECTOR GENERAL

    SUBJECT: Security Guard Services Contract at Naval Weapons Station Earle
             (Report No. D-2009-045)


    We are providing this report for review and comment. We considered comments from the
    Commander, Navy Installations Command; Naval Facilities Engineering Command, Mid-Atlantic;
    and the Commander, Naval Weapons Station Earle when preparing the fin al report.

    DoD Directi ve 7650.3 requires that all recommendations be reso lved promptly. The conU11ents
    from the Commander, Navy Installations Command were responsive. However, the comments
    from Naval Facilities Engineering Command, Mid-Atlantic were only partially responsive.
i   Therefore, we request additional comments from Naval Facilities Engineering Conunand, Mid-
    Atlantic on Recommendati ons B.2.b. and B.2.c. by March 23, 2009.

    Please provide conunents that conform to the requirements of DoD Directive 7650.3 . If possible,
    send your comments in electronic fo rmat (Adobe Acrobat fil e only) to AU DACM@dodig. mil.
    Copies of your comments must have the actual signature of the authorizing offi cial fo r your
    organi Zation. We are unable to accept the I Signed I symbol in place of the actual signature. If
    you arrange to send classified conU11ents electroni call y, yo u must send them over the SECRET
    Internet Protocol Router Network (SIPRNET).

    We appreciate the courtesies extended to the staff. Questions should be directed to me at (703)
    604-9201 (DSN 664-9201 ).
                                                                                      •

                                       ~& ,
                                                Richard B. Jo lliffe
                                                Assistant Inspector General
                                                Acqui siti on and Co ntract Management
                   Report No. D-2009-045 (Project No. D2008-D000CG-0116.000)
                                        January 23, 2009

               Results in Brief: Security Guard Services
               Contract at Naval Weapons Station Earle
                                                           The Navy did not perform quality assurance
What We Did                                                 according to Navy guidance.
This report responds to Congressman                        The Navy did not adequately document
Christopher H. Smith’s request that the DoD                 contractor performance.
Inspector General review the security guard
services contract at Naval Weapons Station              What We Recommend
Earle, New Jersey, in light of the Navy’s plan to          The Navy should maintain a record of when
open base housing to the public. The                        contractor employees complete criminal
congressional request included allegations that             background checks and National Agency
Myers Investigative and Security Service, Inc.,             Checks.
violated its contract with the Navy.                       The Navy should implement procedures to
                                                            document that contractor security guards
We reviewed contract administration and                     have completed Navy required training.
contractor performance for the security guard              The Navy should revise the quality
services contract to determine whether the Navy             assurance plan to comply with Navy
properly administered the contract and whether              requirements, and implement an appropriate
the contractor performed according to contract              surveillance plan.
requirements. We also addressed the following              The Navy should provide the required
specific allegations contained in the                       training to quality assurance personnel.
congressional request.
 The contractor did not conduct background
    checks on prospective contractor employees.
                                                        Corrective Actions
 The contractor did not properly staff security        The Navy provided draft comments in
    shifts.                                             January 2009 stating that they modified the
 The contractor did not properly train                 contract for processing National Agency
    security guards and falsified training              Checks. In addition, the Navy revised the
    documentation.                                      quality assurance plan to include random
                                                        sampling.
 A security exercise identified security flaws.

What We Found                                           Navy Comments and Our
   The Navy was not able to provide documen-
                                                        Response
    tation showing that all contractor security         The Commander, Navy Installations Command;
    guards had completed a background check.            Naval Facilities Engineering Command, Mid-
   With few exceptions, the contractor was             Atlantic; and the Commander, Naval Weapons
    properly staffing security posts.                   Station Earle concurred with our
   The contractor did not document whether             recommendations. However, the Naval
    security guards completed all training              Facilities Engineering Command, Mid-Atlantic
    required by the contract.                           comments on one recommendation were only
   Navy security assessments did not identify          partially responsive and on another
    any significant security concerns about the         recommendation were nonresponsive. Please
    contractor security guards.                         see the recommendations table on the back of
                                                        this page.

                                                    i
              Report No. D-2009-045 (Project No. D2008-D000CG-0116.000)
                                   January 23, 2009

Recommendations Table
Navy                          Recommendations        No Additional Comments
                              Requiring Comment      Required
Commander, Navy                                      B.1.
Installations Command

Commander, Naval Facilities   B.2.b., B.2.c.         A.1.a., A.1.b., B.2.a.
Engineering Command, Mid-
Atlantic

Commander, Naval Weapons                             A.2., B.3.a., B.3.b.
Station Earle


Please provide comments by March 23, 2009.




                                               ii
Table of Contents

Results in Brief                                             i

Introduction                                                 1

       Objectives                                           1
       Background                                           1
       Review of Internal Controls                          2

Finding A. Security Concerns: Allegations and Responses      5

       Navy Planned Corrective Actions                      14
       Recommendations, Navy Comments, and Our Response     14

Finding B. Improved Quality Assurance Needed for Security
Guard Services Contract                                     17

       Navy Corrective Actions                              27
       Recommendations, Navy Comments, and Our Response     27

Appendix

        Scope and Methodology                               31
             Prior Coverage                                 32

Department of the Navy Comments                             33
Introduction
Objectives
The audit objective was to determine whether the Navy properly administered the
contract and whether the contractor performed according to contract requirements. In
addition, the audit addressed specific allegations raised in the congressional request.
Please see the appendix for scope and methodology and prior audit coverage.

Background
Congressman Christopher H. Smith, who represents New Jersey’s fourth district,
requested that the DoD Office of Inspector General (IG) review the security guard
services contract at Naval Weapons Station (NWS) Earle, New Jersey, following
complaints from a former contractor employee about security procedures.

A former employee for Myers Security and Investigative Services, Inc. (Myers) contacted
Congressman Smith about alleged lapses in the security procedures at NWS Earle. The
allegations were as follows.
      Myers was not conducting background checks on prospective contractor
       employees.
      Myers was not properly staffing the security posts at NWS Earle.
      Myers did not properly train security guards and falsified training records.
      A security exercise identified security flaws at NWS Earle.

See finding A for a discussion of the allegations and DoD IG responses.

The DoD Office of Inspector General issued DoD IG Report No. D-2008-116, “DoD
Section 801 On-Base Housing,” on August 12, 2008, concerning the proposed leasing of
300 section 801 housing units located on base at NWS Earle by Laurelwood, Inc. The
audit determined that NWS Earle officials were acting within the terms and conditions of
the 1988 Section 801 housing agreement with Laurelwood, Inc., and the Navy will
review security considerations for inclusion in the Environmental Impact Statement.

NWS Earle
NWS Earle is located in Colts Neck, New Jersey, and is one of three naval weapons
stations on the East Coast. The station occupies 11,851 acres and comprises two separate
land-holdings connected by a 14-mile highway and rail line. NWS Earle’s mission
includes:
      receiving, renovating, maintaining, storing, and issuing ammunition, explosives,
       expendable ordnance items, and weapons and technical ordnance materiel;
      providing logistics and administrative support to home-ported ships; and



                                             1
      performing additional tasks as directed by the Commander, U.S. Fleet Forces
       Command or similar authority.

NWS Earle has its own police force, which is responsible for law enforcement and visitor
control, and also oversees a contracted guard force that provides gate guards and roving
patrols.

Security Guard Services Contract
The Naval Facilities Engineering Command (NAVFAC) awarded a firm-fixed-price,
indefinite-quantity contract for security guard services at NWS Earle to Myers on
January 29, 2004. NAVFAC awarded the contract for an initial 7-month period (March 1
through September 30, 2004) at a cost of $1.9 million with 4 option years. As of
September 2008, the contract at NWS Earle was in its fourth option year, with the total
cost of the contract and the exercised options estimated at $20.7 million. The fixed-price
contract required that the contractor furnish all labor, supervision, materials, equipment,
transportation, and management necessary to provide armed guards, patrols, and related
services to protect personnel, property, facilities, and land. The contractor does not
perform law enforcement at NWS Earle, but is mainly responsible for the prevention of
unauthorized access to the base through the use of entry controls, exit controls, and
roving patrols. NAVFAC Mid-Atlantic Public Works Department, NWS Earle, provides
contract administrative services and quality assurance (QA) for the security guard
services contract.

Quality Assurance Requirements
The Federal Acquisition Regulation (FAR) and the NAVFAC “Facility Support Contract
Quality Management Manual (MO-327),” July 1, 1994, provide requirements for QA.
FAR Subpart 46.4, “Government Contract Quality Assurance,” requires the creation of a
quality assurance plan (QAP) that specifies all contract work requiring surveillance and
the surveillance method. Maintenance and Operation Manual (MO)-327 provides
guidance for creating and administering the plan. MO-327 states that QAPs:

               (a) Provide quality assurance evaluators (QAEs) with a systematic plan
               for the surveillance of the contractor’s work,
               (b) Provide the methods for collecting information necessary to
               evaluate the contractor’s performance,
               (c) Provide a basis for documenting the official contract file on matters
               pertaining to performance and quality,
               (d) Provide the methods for collecting data to justify deductions to the
               contract price in the event of unsatisfactory performance by the
               contractor, and
               (e) Provide shore establishment with a basis for providing QA
               resources at an adequate level.

Review of Internal Controls
We identified no material internal control weaknesses for the security guard contract at
NWS Earle. However, the Navy’s internal controls over contract administration were
inadequate as they applied to the audit objectives because Navy personnel were not


                                                  2
adequately performing and documenting Government oversight. Implementing
Recommendations A.1., A.2., B.1., B.2., and B.3. will correct the internal control
weaknesses.




                                            3
4
Finding A. Security Concerns: Allegations
and Responses
DoD IG received a request from Congressman Christopher H. Smith to review
compelling security concerns at NWS Earle in light of the Navy’s plan to open base
housing to the public. The congressional request included allegations by a former
contractor employee of violations of the contract between the Navy and Myers. The
allegations included the following.
          Myers did not conduct background checks on prospective contractor employees.
          Myers did not properly staff security shifts.
          Myers did not properly train security guards and falsified training documentation.
          A security exercise identified security flaws.
The allegations included in the congressional request from Congressman Smith are
discussed below.

Allegation 1. Background Checks
Myers did not conduct background checks on prospective contractor employees.1

DoD IG Response
Navy security personnel were not able to provide documentation that all contractor
security guards had completed required security checks because the Navy did not always
keep the results of criminal background checks or National Agency Checks (NACs).
Therefore, we were unable to determine whether the required security checks were
completed for all contractor security guards.

Criminal Background Checks
NWS Earle security personnel provided documentation showing that the Navy completed
a criminal background check for 43 contractor security personnel in our 45-person
judgmental sample. The appendix provides additional detail on the sample. Contractor
security personnel are required to undergo a criminal background check to work as
security officers at NWS Earle. NWS Earle security personnel provided documentation
showing that 43 of a judgmental sample of 45 current and former contractor employees
had completed a criminal background check. According to the NWS Earle security
director, NWS Earle security personnel conduct criminal background checks on
contractor personnel. The contractor submits an application that NWS Earle security
personnel use to complete the criminal background check through the Federal Bureau of
Investigation Criminal Justice Information Services. The criminal background check
application includes a signature block for Navy personnel to sign on the completion of
the criminal background check. Navy personnel signed 43 of the 45 applications for


1
    The Navy, not the contractor, conducted background checks.


                                                     5
personnel in our sample. NWS Earle security personnel provided the applications as
proof that the checks were approved; however, we could not determine whether the
Navy approved checks for 2 of the 45 contractor security guards in our sample because
the applications were not signed. In addition, of the 43 signed applications, 22 were not
completed before the individuals’ hire date. The Navy should implement procedures to
document the completion of criminal background checks. The figure shows the
breakdown of the signed application forms obtained for the judgmental sample of
45 contractor employees.

                                                              2 of 45




                22 of 45

                                                                                 21 of 45




                  No documentation of approved application

                  Application approved before hire date

                  Application approved after hire date



Note: Figure represents a judgmental sample of 45 current and former employees. It does not represent all
contractor employees. Among all contractor employees, there may be individuals having no documentation
of a criminal background check.

Contractor Security Guards’ Applications for Criminal Background Checks


National Agency Check
Navy personnel provided documentation showing that 16 of a judgmental sample of
24 current and former contractor personnel had applied for a NAC. Navy personnel also
provided documentation that the Office of Personnel Management completed NACs for
13 of the 24 contractor personnel. The NWS Earle installation security manager
explained that he did not know whether he was required to keep a copy of the NAC
applications; however, he did keep a copy for NACs that he had performed. Before
October 2007, the installation security manager explained that he was responsible for
processing NACs through the Office of Personnel Management. For each new contractor
security guard, NWS Earle security personnel prepared a Standard Form 85P,
“Questionnaire for Public Trust Positions,” revised September 1995, and submitted the



                                                          6
application to the Office of Personnel Management. The Office of Personnel
Management completed the check and notified the NWS Earle security manager of the
results.

The NWS Earle installation security manager stated that he stopped processing NACs as
of October 2007, when the NAC began requiring a local agency check and credit check
that he did not have the capabilities to perform. He stated that the Defense Industrial
Security Clearance Office should be processing NACs. The contractor guard force
manager stated that requiring the contractor to process the NACs through the Defense
Industrial Security Clearance Office would be an additional cost to the contractor. The
contractor guard force manager stated that, as of July 2008, NACs were not being
conducted, and any contract security guard not possessing a NAC was not permitted to be
stationed in ordnance areas. NWS Earle security should establish a means for
prospective security guard employees to receive NACs. In addition, NAVFAC facilities
support personnel should maintain a record or require the contractor to maintain a record
of when an individual completes a NAC.

Allegation 2. Contractor Staffing
The contractor did not always properly staff security shifts at NWS Earle—specifically,
the contractor did not always cover posts when a guard did not report for work (resulting
in an open post), and guards sometimes slept while on duty.

DoD IG Response
Overall, the contractor was properly staffing the security posts at NWS Earle. Navy
personnel acknowledged that the contractor had a few instances of open posts
immediately after the 2004 contract was awarded, but that it is no longer a problem.
Navy personnel stated that it is unlikely the contractor could leave a security post open
without Navy security being aware of it. The allegation noted incidents of a guard
sleeping on post; however, the allegation also noted that the contractor later dismissed the
individual. While overall the contractor properly staffed the security posts, we could not
determine that it performed in a satisfactory manner. See finding B for additional details.

Open Posts
Navy personnel acknowledged some instances of open posts; however, they were
minimal. The contractor is required to cover all guard posts as stated in the contract. If a
guard is unavailable, the contractor may cover the post with a security supervisor for no
more than 3 hours. The contractor is required to notify the Navy when an open post
occurs. If the contractor cannot staff the post after 3 hours, then the Navy may assign
uniformed Navy personnel to perform the missing guard’s function. The Navy then
withholds payment to the contractor for work not performed.

Overall, the contractor was properly staffing the security posts at NWS Earle. We
obtained and reviewed invoice packages for March 2004 through December 2007 and
noted deductions in 13 of the 46 months reviewed, all for open posts. The deductions
totaled approximately $4,500 on a contract totaling about $22 million. The contract


                                             7
allows the contractor to have as many as 207 hours per month of open posts for 21 posts
and still maintain a satisfactory performance rating. Table 1 shows the number of hours
of open posts compared with the possible hours staffed and the open post hours allowed
for a satisfactory rating.
                            Table 1. Occurrence of Open Posts

    Year       Number of       Hours of           Possible Hours        Open Post Hours Allowed
                Months        Open Posts             Staffed            for a Satisfactory Rating
    2004          10            144                  113,076                       2,075
    2005          12              9                  135,691                       2,490
    2006          12              5                  135,691                       2,490
    2007          12              8                  135,691                       2,490

Navy Responsibility
NWS Earle installation security personnel have overall responsibility for security at NWS
Earle. According to the NWS Earle security director, Navy security personnel perform
law enforcement duties and security patrols of the installation at the same time that
contractor guards are working. The Navy watch commander attends each shift’s
guardmount2 and verifies that the required number of contractor guards reported and are
ready for duty. In addition, the Navy watch commander is required to visit security posts
during each shift.

Guard Oversight
       The Navy watch commander, the Navy Quality Assurance Evaluator (QAE), and
the contractor shift supervisors all monitor how the contractor staffs a shift and how the
guards perform their duties. Each day, the following people perform the duties described
to ensure contractor performance and the completion of shifts.
               The Navy watch commander is required to patrol within the confines of the
                Earle installation and the 17 miles of Federal road connecting the NWS Earle
                main-side complex and the waterfront complex. The watch commander’s
                duties include conducting inspections of posts to ensure cleanliness, proper
                uniform and gear for watch standers, proper qualifications, and proficiency.
               The QAE conducts surveillance as stated in the QAP. During his surveillance
                of the guard posts, the QAE prepares a daily report that details the date,
                weather conditions, posts observed, and the surveillance results.




2
  A guardmount is a briefing and inspection of guards coming on duty at shift change. Guards are briefed
on any pertinent information related to their post assignments; issued weapons, radios, and the like; and
inspected for compliance with uniform and appearance standards.


                                                    8
          Contractor shift supervisors supervise other guards at their designated posts.
           During their shifts, supervisors are responsible for filling out a daily activity
           report, which details everything that is done at the respective guard post.
           These daily activity reports detail all relevant activities that occurred during
           the shift and ensure that the contractor is fulfilling the assigned duties.

Other individuals also perform oversight. Contractor security dispatchers compile a desk
journal during their shift that documents who was scheduled to work at which post, as
well as all events occurring on base that are either out of the ordinary or relevant.
Contractor guards performing perimeter patrols and munitions inspections must both
radio the dispatchers and complete written logs of their actions. The contractor security
dispatchers record the watch commander’s observations and the guards’ radio calls in the
desk journal. The Navy watch commander reviews and signs off on the desk journal if he
feels that it is a correct representation of the shift’s work.

Security Shift Documentation
        Navy security personnel confirm that the contractor guards are properly staffing
shifts by examining documentation such as the desk journal, which identifies the
personnel assigned to work during a shift and any activities performed, and the daily
activity reports, which document the contractor shift supervisor’s actions and confirm
that the guard posts were staffed in accordance with the contract. In addition, all guards
assigned to roving patrols must fill out vehicle logs, which detail the mileage, time, and
condition of the vehicle at the beginning and conclusion of their shift. The QAE’s daily
reports document the surveillance conducted to make sure that the contractor is
conforming to contract requirements. When properly completed, the documentation
provides a good audit trail verifying that the correct people were at their assigned posts,
were conducting patrols, and were adhering to the contract guidelines. However, Navy
and contractor personnel did not always fully document contractor deficiencies. See
finding B for additional details.

Allegation 3. Contractor Training
The contractor did not properly train security guards and falsified training documentation.

DoD IG Response
The contractor documented in the employee training records that all guards in the audit
team’s judgmental sample of 45 contractor security guards had completed Phase I
training and firearms training, and that 44 of 45 had completed physical agility training.
In addition, the contractor documented that all 20 of the guards in our sample who had
been employed by Myers for more than 2 years had completed Phase II training.
However, the contractor did not document in employee training records the required
number of hours of training or all of the required topics because the Navy did not specify
how the contractor should document that information. Therefore, the audit team was not
able to determine whether all contractor security personnel had completed the required
number of hours of training or all required topics. The audit team did not identify any
instances of falsified training documentation.


                                              9
Training Requirements
The contractor did not document in employee training records the completion of the
required number of hours of training or all of the required topics. The Navy required that
contractor security guards complete 80 hours of Phase I training before staffing a guard
post, and 40 hours of Phase II training annually. Phase I training includes classroom
coursework, firearms training (time at the firing range), and on-the-job training. Phase II
training includes refresher classes from Phase I, as well as recertification for firearms and
additional on-the-job training. In addition, contractor security guards were required to
pass an annual physical agility test. Contractor training records were insufficient to show
that guards had completed the required number of hours or the required topics. However,
the Navy did not specify in the contract how the contractor should document that
information to meet contract requirements.

Training Completed
The contractor documented in the employee training records that all guards in the audit
team’s judgmental sample of 45 contractor security guards had completed Phase I and
firearms training, and that 44 of 45 had completed physical agility training. Of these
45 training files reviewed, all 45 showed the employees completed Phase I classroom
coursework and their firearms certification. In addition, all 20 guards in our sample that
had been employed by Myers for more than 2 years had completed Phase II training.
Further, only one individual’s physical agility test had expired, and as of August 4, 2008,
the contractor had scheduled physical agility testing for all of the guards. However, the
contractor did not document in the contractor personnel training records the required
hours of training, including time spent receiving certifications and on-the-job training, or
all topics required by Chief of Naval Operations Instruction (OPNAVINST) 5530.14C,
“Navy Physical Security Manual,” December 10, 1998.3

Training Hours
        The contractor did not fully document in the training records the required hours of
training completed, such as on-the-job training or time spent at the firing range. The
training records included a list of courses and the number of hours for each in Phase I and
Phase II but identified only 18.5 hours of Phase I and 24 hours of Phase II instruction.
The contractor provided the Phase I training schedule, which accounted for all 80 hours
of training, including firearms and on-the-job training, and other certifications as
required. However, the number of hours completed were not documented in the
contractor personnel’s training files. The Phase II training plan provided only a list of
courses and did not demonstrate the breakdown of course hours. The audit team verified
that the contractor training officer covers a Phase II topic each month and, on completion,
annotates the training record and signs and dates the training file.




3
    Superseded by OPNAVINST 5530.14D in January 2007.


                                               10
Training Topics
       The contractor did not fully document in the training records all of the topics
required by OPNAVINST 5530.14C. The contract states that OPNAVINST 5530.14C
provides guidance for the training requirements by specifying course topics to be
covered. However the contractor-prepared training files did not list all of the topics
required by OPNAVINST 5530.14C. We obtained copies of the draft revised training
schedule for Phase I training and the plan for Phase II training to determine whether they
covered all required course topics. The contractor training officer stated that some of the
required topics are covered under a different course title in the training schedule. For
example, the training schedule lists a course titled “Jurisdiction and Authority,” which
provides instruction on selective enforcement, as required by OPNAVINST 5530.14C.
Another example on the training schedule is the course titled “Crime Prevention and
Crimes in Progress,” which provides instruction on drugs and drug abuse, as required by
OPNAVINST 5530.14C. As of July 2008, the contractor training officer was working to
update all contractor security guards’ training records.

In addition, contractor officials informed us that OPNAVINST 5530.14C was superseded
by OPNAVINST 5530.14D, “Navy Physical Security and Law Enforcement Manual,” on
January 30, 2007. The contract requires that the most recent version of directives be
used. The Navy should implement procedures to adequately document that contractor
security guards have completed Navy required training.

Allegation 4. Security Assessments
An article in the New Jersey Star Ledger reported on alleged security flaws discovered
through a security exercise held at NWS Earle.4 The article specifically noted poor
responses to packages containing dangerous materials when they were smuggled into the
base; insufficient safety gear, such as too few protective helmets and vests; inadequate
personnel levels; and failed inspections by security officers. The article said that one
day’s test showed that manpower levels were inadequate at some guard posts. The article
also explained that the base’s communications system failed to operate properly during
another test.

DoD IG Response
The news article misrepresented NWS Earle security and was not indicative of significant
security problems at NWS Earle. We met with the NWS Earle security director
regarding the alleged security flaws identified in the article. According to the security
director, the exercise detailed in the article was a routine exercise performed to check for
deficiencies and to develop recommendations to address any deficiencies. Furthermore,
the security director provided us with additional information on security assessments
performed at NWS Earle. After meeting with NWS Earle security director and reviewing
the Lessons Learned After-Action Report as well as additional security assessments and


4
 “Terror drills expose Earle security flaws, secret papers reveal,” New Jersey Star Ledger, Sunday,
11 Nov. 2007.


                                                    11
appraisals, we determined that the news article was not indicative of significant security
problems at NWS Earle.

Security Assessments
The Navy assesses installation security continuously. We reviewed internal and external
assessments for 2004 through 2007. None of the assessments identified significant
problems related to the contractor security guards. The security assessments performed
at NWS Earle are discussed as follows.

Risk Assessment
       The installation antiterrorism officer completes a risk assessment at the beginning
of each calendar year. The assessment includes:

      a criminal and terrorist threat assessment that identifies the local and global
       threats to the installation,

      a vulnerability assessment that identifies installation-specific vulnerabilities that
       could be exploited by criminals or terrorists, and

      a criticality assessment that identifies which installation assets are critical to
       mission accomplishment and could be considered vulnerable to a terrorist or
       criminal threat.

At the conclusion of the assessment by the installation antiterrorism officer, Navy
security personnel complete a risk assessment that identifies all critical assets vulnerable
to criminal and terrorist threats.

Comprehensive External Antiterrorism Integrated
Vulnerability Assessment
        The Chief of Naval Operations Integrated Vulnerability Assessment Team or the
Joint Service Integrated Vulnerability Assessment Team conducts a comprehensive
external antiterrorism integrated vulnerability assessment every 3 years. The purpose of
the external assessment is to identify antiterrorism program deficiencies and
vulnerabilities that could be exploited, and provide realistic recommendations aimed at
improving antiterrorism program implementation and risk-mitigation strategies. The
assessment is conducted using Defense Threat Reduction Agency benchmarks. A local
assessment is required annually in the years when no external assessment is scheduled.
The last Joint Service Integrated Vulnerability Assessment on NWS Earle was conducted
in July 2004, and the last Chief of Naval Operations Integrated Vulnerability Assessment
was conducted in August 2007. A higher headquarters review is scheduled in 2010.

The NWS Earle contract specialist provided us with an e-mail that discusses the positive
outcome from the Chief of Naval Operations Integrated Vulnerability Assessment in
August 2007. Specifically, the e-mail stated:




                                             12
               The team leader performing the inspection commented that, out of the
               15 inspections he has conducted, the working relationship between the
               Navy and Myers is the best he has ever seen between military and
               civilian guards. Both get along, but most noted and most importantly,
               all work together without friction or anything that will get in the way of
               the mission.

Increased Security at DoD Installations
DoD installations face increased security concerns today. Before September 11, 2001,
many DoD installations were open and allowed the general public access with very little
security monitoring. Following the terrorist attacks of 2001, DoD implemented various
antiterrorism and force protection measures to limit public access to sensitive military
information.

DoD Regulation 5200.08-R, “Physical Security Program,” April 9, 2007, implemented
DoD policies and minimum standards for the physical protection of DoD personnel,
installations, operations, and related resources. The physical security program consists of
active and passive measures to prevent unauthorized access to personnel, equipment,
installations, and information and to safeguard them against espionage, sabotage,
terrorism, damage, and criminal activity. DoD Regulation 5200.08-R, Chapter 3,
implemented general procedures that meet minimum Federal standards for controlling
entry onto and exit from military installations and the facilities therein. Access control
measures include:

      implementing DoD antiterrorism standards and DoD antiterrorism program-
       specific security measures based on the level of threat;

      designating restricted or controlled areas to safeguard property or resources for
       which the commander is responsible; and

      denying access to or enforcing the removal of persons who threaten security,
       order, or the discipline of the installation.

Conclusion
We reviewed the allegations contained in Congressman Smith’s audit request, and we
identified one administrative concern at NWS Earle regarding the processing of
background checks and a second administrative concern regarding contractor training.
NWS Earle security personnel were not always able to provide documentation showing
that the proper background checks had been completed prior to the hire date for
contractor security guards because NWS Earle Security did not always keep the results of
criminal background checks or NACs. As of July 2008, contractor security personnel
were not undergoing NACs because of a change in the requirements for processing the
NACs. In addition, the contractor did not fully document that all contractor security
guards completed the required number of training hours in the specified topics because
the contract did not specify how the contractor should document the training completed.
We did not identify any instances in which the contractor falsified training records.



                                                  13
Navy Planned Corrective Actions
In October 2008, NAVFAC Mid-Atlantic officials provided documentation that they
intend to modify the contract to pay the contractor to process NACs through the Defense
Industrial Security Clearance Office. The action was taken as a result of our audit and,
when completed, should satisfy the requirements of Recommendation A.1.a.

Recommendations, Navy Comments, and Our Response
A.1. We recommend that the Commander, Naval Facilities Engineering Command,
Mid-Atlantic direct the Naval Weapons Station Earle facilities support contract
manager to:

      a. Maintain records of when contractor employees complete their National
Agency Checks.

Navy Comments
Naval Facilities Engineering Command, Mid-Atlantic, responding through the
Commander, Navy Installations Command, concurred and commented that the Navy
plans to modify the contract to require the contractor to process National Agency Checks
through the Defense Industrial Security Clearance Office. Upon completion of these
checks, the facilities support contracts manager will maintain a copy, and a copy will be
forwarded to the quality assurance evaluator, who will maintain a spreadsheet to track the
dates when the guards receive the required clearances. According to additional draft
comments dated January 14, 2009, the modification was executed on December 18, 2008.

Our Response
Comments of the Naval Facilities Engineering Command, Mid-Atlantic were responsive.
No additional comments are required.

      b. Implement procedures to adequately document that contractor security
guards have completed Navy required training.

Navy Comments
Naval Facilities Engineering Command, Mid-Atlantic, responding through the
Commander, Navy Installations Command, concurred and commented that new
procedures have been established requiring the quality assurance evaluator to maintain a
spreadsheet monitoring when training is completed. The quality assurance evaluator will
also attend Physical Security Specialist courses to qualify him/her to interpret current
requirements.

Our Response
Comments of the Naval Facilities Engineering Command, Mid-Atlantic were responsive.
No additional comments are required.




                                           14
A.2. We recommend that the Commander, Naval Weapons Station Earle require
the security director to maintain a record of when contractor employees completed
criminal background checks.

Navy Comments
The Chief of Staff, Navy Region Mid-Atlantic, responding for the Commander, Naval
Weapons Station Earle, concurred and commented that Naval Weapons Station Earle
personnel have increased controls over the maintenance of contractor employees’
criminal background checks to preclude the hiring of contractor employees before
completion of criminal background checks. The process requires that criminal
background check records be kept for the duration of the contract. In addition, the Naval
Weapons Station Earle security investigator was developing a standard operating
procedure to document this process. The target completion date for the standard
operating procedure is January 15, 2009. As of January 15, 2009, the standard operating
procedures were being reviewed for approval.

Our Response
The Chief of Staff’s comments were responsive. No additional comments are required.




                                           15
16
Finding B. Improved Quality Assurance
Needed for Security Guard Services Contract
QA procedures for the security guard services contract at NWS Earle could be improved.
Navy QA and security personnel did not always properly perform or document
Government oversight. Inadequate oversight occurred because the Navy did not prepare
a QAP or perform QA according to NAVFAC guidance. Specifically, Navy personnel:

      employed an improper surveillance method;
      created an inadequate QAP;
      did not perform QA during nights, weekends, or holidays;
      did not prepare a surveillance schedule; and
      did not adequately document oversight.

As a result, although Navy personnel determined that contractor performance was
satisfactory, we could not verify that determination.

Quality Assurance Plan
NAVFAC facility support personnel did not prepare a proper QAP that identified a
suitable surveillance method. Instead, they selected a method that did not agree with
naval guidance for the type of contract and the QA resources that were available. In
addition, the QAP was unsigned, undated, and had no evidence of review.

Surveillance Method
NAVFAC facility support personnel chose an incorrect primary surveillance method to
oversee the security guard services contract. The QAP identified planned sampling as the
primary surveillance method. However, Navy guidance states that random sampling is
more appropriate for this type of service. The QAE should use the correct surveillance
method because it determines how the contractor’s performance is inspected, a factor that
affects the amount of resources devoted to the QA effort. MO-327 states that random
sampling is preferred for monitoring guard services when:
      inspection resources are limited,
      the number of tasks performed is large and the tasks are relatively homogenous,
      contract tasks occur frequently or continuously, and
      there is a well-documented audit trail of contractor activities, such as completed
       work orders or vehicle maintenance logs, to evaluate.

The facilities support contract manager (FSCM) provided a document titled “Quality
Assurance Guide for Contract No. N62472-03-R-083 Security Guard Services Naval
Weapons Station Earle Colts Neck, New Jersey,” along with the QAP. The QA guide
was designed to assist the QAE under the direction of the FSCM in executing the QA
program for the security guard services contract. The QA guide also considers random


                                            17
sampling an appropriate surveillance method because of the high frequency and number
of tasks performed in the typical guard services contract. Table 2 illustrates applications
of random and planned sampling to meet surveillance requirements as stated in MO-327
and the QA guide.

                  Table 2. Applications of Random and Planned Sampling

                                                                             Preferred Sampling
                       Surveillance Requirement                                    Method
                                                                            Random       Planned
Inspection resources are limited                                              X
The total number of services is small                                                       X
Specified contract locations must be monitored because of individual                        X
importance
Contract tasks occur frequently or continuously                                X
Attention is focused on known problem areas                                                X
Contract tasks do not require vigorous inspections                                         X
A well-documented audit trail of contractor activities exists                  X
Follow-up on customer complaints is required                                               X
The quality assurance evaluator is a trained physical security specialist                  X

Source: MO-327 and the QA guide

Under random sampling, the QAE evaluates a portion of the work and estimates
contractor performance statistically. Conversely, under planned sampling, the QAE
subjectively chooses both the work to be evaluated and the sample size and focuses on
known problem areas or areas of higher importance.

NAVFAC facility support personnel did not consider inspection limitations when they
chose planned sampling as the primary surveillance method. The QA guide states that
QAE staffing should be based on the contract’s surveillance requirements, rather than
basing those requirements on the availability of QAEs. Planned sampling should be used
if one of the assigned QAEs is a trained physical security specialist, even if only as a
secondary responsibility. Otherwise, random sampling should be used. MO-327
recommends random sampling when the number of tasks the contractor performs is large
and inspection resources are limited. NAVFAC facility support personnel selected
planned sampling when only one QAE, who had no security training, was assigned to
oversee the security guard services contract. The QAE also oversees QA on three other
service contracts.

In addition, NAVFAC facility support personnel’s chosen surveillance method did not
agree with the day-to-day operation of the security services contract. At NWS Earle, the
contractor security guards staffed 21 posts daily and provided fixed and continuous guard
services 24 hours a day, 7 days a week. The guards prepared documents such as vehicle
logs, daily activity reports, and the desk journal to document their performance. The one
Navy QAE performed numerous observations of all posts; however, the QAE observed
the contractor primarily weekdays on the day shift and did not perform inspections at


                                                      18
night, when most of the contractor deficiencies occurred. The day-to-day operations call
for a random surveillance method. Table 3 lists NWS Earle surveillance considerations
and shows which surveillance method is better suited for the security services contract.

               Table 3. Sampling Method Suited to NWS Earle Operations
                      Surveillance Considerations                              Sample Method
                                                                              Random Planned
One QAE assigned                                                                X
Contractor personnel staffed 21 posts daily                                     X
The QAE monitored all posts regardless of a post’s individual security risk     X
The contractor performed guard services 24/7                                    X
The majority of deficiencies occurred on third shift                                     X
The contractor had a sufficient audit trail of guard activities                 X
The customer prepared very few customer complaints                              X
The QAE was not a trained physical security specialist                          X

NAVFAC facility support personnel chose a surveillance method (planned sampling) that
did not properly address NWS Earle’s needs or considerations. The size and nature of the
security services contract called for random sampling. Planned sampling was designed to
observe a few services, not numerous security services provided to an entire installation.
NAVFAC facility support personnel should choose a surveillance method suitable for a
security services contract that can fill the requirements of the QA program.

Quality Assurance Plan Creation and Approval
NAVFAC facility support personnel created an inadequate QAP for the security guard
services contract. The FSCM provided us the most recent version of the QAP, which was
not dated or signed. Further, QA personnel could not provide evidence that the QAP had
been reviewed or updated. MO-327 states that the QAP is created through the joint
efforts of the specification writer, the QAE, the FSCM, and the customer representative
or functional manager. However, the QAE stated that he largely created the current QAP
himself, basing it on a NAVFAC template, when he was assigned to the contract in 2004.
The QAE stated that he sent the QAP to the FSCM for approval but never received a
response. Further, the QAE stated that he had used the QAP ever since, and it had never
been updated. NAVFAC facility support personnel should revise the QAP so the QAE
can monitor contractor performance in accordance with agreed-on practices.

Quality Assurance Performance
NAVFAC facility support personnel should improve their QA procedures. The QAE did
not perform after-hours inspections, used an inappropriate surveillance method, did not
fully document oversight, and did not perform inspections according to naval guidance or
the QAP. Although Navy security personnel oversee the contractor 24/7 for the
installation’s physical security, Navy security personnel did not always document their
oversight to meet QAP and MO-327 requirements.




                                                    19
After-Hours Quality Assurance
NAVFAC facility support personnel did not perform after-hours post inspections for a
highly sensitive and continual performance security services contract. MO-327 and the
QA guide suggest that QAE staffing be based on the importance of a particular service.
Yet, the NAVFAC Public Works Department assigned only one QAE to oversee
contractor performance. The QAE was also responsible for QA on three other contracts.
The QA guide recommended against having a single QAE oversee performance on
multiple shifts and consequently required sufficient resources to perform inspections
during off-peak hours. However, the assigned QAE rarely performed QA during nights,
weekends, or holidays. NWS Earle is a large station that provides significant services,
such as armament functions, to many. Because of the round-the-clock and sensitive
nature of the contractor’s services, NAVFAC facility support personnel should require
inspections during nights, weekends, and holidays.

NAVFAC facility support personnel acknowledged that they rarely performed QA on
other-than-weekday shifts. We judgmentally selected the month of October 2006 to
determine when the majority of QA inspections occur. We reviewed 6 worksheets and
19 daily reports used to support the October 2006 monthly performance evaluation. Of
the 105 documented observations for October 2006, we determined that the QAE made
84 observations during the first shift and 21 observations during the second. The QAE
never monitored the third shift, yet contractor personnel staff the majority of the posts
around the clock. The QAE made second-shift observations on only 4 days and did not
confirm any actual work performance. Those recorded observations addressed only
guard attendance at guardmount and proper work attire. In addition, the QAE made
observations only during the week, not on weekends or holidays.

The QAE should be performing QA inspections during off-peak hours because that is
when the majority of open posts occurred. NAVFAC facility support personnel assessed
the majority of contract payment deductions for contractor nonperformance on the third
shift. All 48 deductions occurring between March 2004 and December 2007 were for
open posts, totaling 167 unstaffed post hours and about $4,500. Over half of the
deductions (33) occurred during the third shift. Both the FSCM and the QAE agreed that
surveillance was rarely performed during off-peak hours. QA personnel should provide
oversight of the contractor during off-peak hours. Table 4 shows the number of
occurrences, length, and cost of each open post by the shift on which the deficiency
occurred.
               Table 4. Open Posts by Shift, March 2004-December 2007


      Open Posts               Shift 1             Shift 2                   Shift 3    Total
Number                            9                  6                         33         48
Length (hours)                   19                  17                        131       167
Cost (Deductions                $ 415              $ 399                     $ 3,037   $ 3,851
taken before liquidated
damages*)

* An additional $683 in liquidated damages was also assessed and deducted.




                                                        20
Surveillance Schedules
The QAE relied on unscheduled (incidental) inspections as the primary method of QA.
However, the QAP specifically states that planned sampling is the primary surveillance
method supported by unscheduled inspections and validated customer complaints. The
QAE stated that he tried to observe each post weekly, but did not document the processes
he used to determine how and when he reviewed each post. He also did not prepare a
surveillance schedule that could be used when he was unavailable.

NAVFAC facility support personnel did not prepare a surveillance schedule to determine
and document the sample size and the evaluation procedures to allow others to complete
QA surveillance in the same manner. MO-327 requires that QA personnel create and use
surveillance schedules. Surveillance schedules show where and what the QAE is
monitoring at all times. Completing surveillance schedules optimizes the use of available
time and provides management with the information necessary to monitor the QA
program. The QAP states that before an evaluation period the QAE will choose and
document an appropriate number of posts to sample. Without a surveillance schedule,
the QAE performed unscheduled inspections as the primary surveillance method.
MO-327 specifically states that unscheduled inspections cannot be used to determine the
contractor’s overall level of performance. The QAE agreed that planned sampling was
not being performed and that a surveillance schedule was not in place. Further, without a
surveillance schedule, the FSCM’s signature on the monthly invoice was the only
evidence of supervisory review of the QA program. NAVFAC facility support personnel
should implement a surveillance schedule to consistently administer and review the QA
program.

Although the QAE did not prepare a surveillance schedule to determine and document
the sample size, he did regularly observe the security posts. We reviewed 6 worksheets
and 19 daily reports used to support the October 2006 monthly performance evaluation to
determine whether the QAE observed an adequate number of posts. All 21 posts staffed
daily were monitored and, with the exception of 2 posts, were reviewed 3 or more times.
The QAE made a total of 105 observations for the 21 posts that included 239 required
tasks. Of the 105 observations, the QAE recorded 84 during the first shift and 21 during
the second shift. However, the QAE never monitored the third shift. NAVFAC facility
support personnel should prepare a surveillance schedule that meets MO-327 standards.

Oversight Documentation
QA personnel did not provide any documentation to show that QA occurred when the
assigned QAE was unavailable. We obtained all of the QAE’s available monthly
performance evaluations between March 2004 and March 2008. However, we could not
obtain evaluations for 5 full months and 2 half-months for that 49-month period. QA
personnel were unable to locate monthly performance evaluations and related QA
documentation for April 1-June 12, 2005, and April 1-July 16, 2006. The QAE stated
that he was on extended leave during those times and was unaware who performed the
surveillance or whether the surveillance was documented. In addition, the QAE did not
prepare inspection schedules for use by a replacement when he was unavailable. QA



                                           21
personnel should prepare surveillance schedules to document QA surveillance procedures
so others can properly perform and record contractor surveillance.

Importance of Quality Assurance Observations
        NAVFAC facility support personnel did not require inspections during off-peak
hours. QAE inspections are important because they are the only method for observing
actual guard performance. QA and Navy security personnel stated that the Government
can review various pieces of contractor and Government documentation to ensure that the
contractor properly performed guard duties. We reviewed daily reports, worksheets,
daily activity reports, security logs, incident reports, and desk journals for 10 deficiencies
that occurred between January 2005 and November 2007 and determined that the QAE
cannot always rely on the available documentation to identify an open post. Table 5 lists
each of the 10 deficiencies and indicates whether or not a deficiency was noted in the
reviewed documentation.

       Table 5. Deficiencies Recorded in Government and Contractor Documents

   Deficiency Date       Government (QAE)-                   Contractor-Maintained
                             Maintained
                      Daily Report  Worksheet      Daily     Security    Incident      Desk
                                                  Activity     Log        Report      Journal
                                                  Report
   Jan. 7, 2005          Not           Yes          No         Yes         Yes          No
                       Prepared
   March 1, 2005         Yes            No          No         No          No           No
   March 1, 2005         Yes            No          No         No          No           No
   Dec. 25, 2005         Not            No          No         Yes         Yes          No
                       Prepared
   Oct. 24, 2006         Yes           Yes          No         No          No          No
   Dec. 19, 2006         Not           Yes          No         Yes         Yes         Yes
                       Prepared
   Jan. 2, 2007          Not           Yes          No         No           No          No
                       Prepared
   Jan. 3, 2007           No           Yes          No         No           No          No
   April 22, 2007        Not           Yes          No         Yes          No          No
                       Prepared
   Nov. 23, 2007         Not            No          Yes        Yes         Yes          No
                       Prepared



We could not trace a single deficiency through all six types of documentation. The
documentation to demonstrate contractor performance is an effective audit trail only
when Navy and contractor personnel prepare the documentation properly and
consistently. The audit trail was inadequate to identify the 10 open posts.
       The QAE documented only 1 of the 10 incidents on both the daily report and the
        worksheet. Daily reports document the posts observed and the results of the
        QAE’s surveillance. The QAE prepares worksheets that document the
        satisfactory or unsatisfactory performance rating for each observation noted on


                                             22
       the daily report. We determined that these documents are the only naval
       documentation used to show when contractor deficiencies occur. However, these
       documents are designed to record only the QAE’s observations during
       surveillance, not all instances of contractor nonperformance. For example, the
       QAE documents do not reflect the contractor’s own admission of deficiencies, as
       on November 23, 2007. The QAE stated that his daily reports and worksheets are
       the support for the contractor’s monthly performance evaluations and payment.
      The QAE stated that contractor-maintained daily activity reports document the
       results of a shift supervisor’s inspection. However, only one daily activity report
       identified the occurrence of an open post.
      Contractor personnel documented only 4 of the 10 incidents in both the security
       log and incident report. The contractor could not locate or had not prepared
       incident reports for the six remaining open posts. Incident reports are numbered
       corresponding to the security log and are used by the contractor to document
       abnormal occurrences or areas of noncompliance during the performance of
       duties. The contractor prepares and maintains the security logs and incident
       reports.
      The NWS Earle security director stated that desk journals record all instances of
       open posts and are the primary records used for Government oversight of the
       contractor during off-peak hours. However only 1 of the 10 contractor-
       maintained desk journals reviewed included any reference to an open post.

The QAE could not determine whether an open post occurred during off-peak hours
because inspections were not performed then, and the audit trail was inadequate. Instead
of relying on Government resources, the QAE relied on the contractor’s guard force
manager to notify him of any deficiencies occurring during off-peak hours. This is
important because the majority of deficiencies occurred during the third shift. Between
March 2004 and December 2007, 166 unstaffed post hours were documented; of these,
130.5 occurred during the third shift. Navy security personnel were present on all three
shifts and could have, but did not, fill out customer complaint forms. NAVFAC facility
support personnel should require QAE inspections during off-peak hours. Further, both
Government and contractor personnel should complete documentation to establish an
audit trail.

Navy Security Personnel Oversight Documentation
        Navy security personnel were not using the customer complaint form as a means
of documenting contractor nonperformance because NAVFAC facility support personnel
did not fully implement a customer complaint program. The QAP specifically states that
customer complaints are a secondary surveillance method. According to MO-327,
customers use complaint forms to notify the QAE of any instances of unsatisfactory
contractor performance. The QAE investigates the complaints, and documents and uses
the complaints he validates in QA assessments and contractor payment deductions.
However as of August 2008, Navy security personnel had prepared only one customer
complaint form since the start of the contract in 2004. In addition, Navy security



                                            23
personnel had not received training on the complaint form as required by both the QAP
and MO-327.

Navy security personnel did not use the complaint forms or understand the complaint
program’s importance without having had any training on its use. MO-327 states that an
aggressive customer complaint program needs to be established, explained to the
customer, and documented in an operation instruction. The customer should understand
the scope of the contract and be willing to participate in the program. NAVFAC facility
support personnel could not provide any documentation, such as an operation instruction,
to show that a customer complaint program was in place.

Navy security and QA personnel stated that Navy security was more concerned with the
physical security of the installation and were not as concerned with the administrative
aspects of the contract. Navy security personnel work alongside the contractor under the
direction of Navy watch commanders to provide security at the base 24 hours a day,
365 days a year. Navy security personnel could serve as additional eyes for the QAE if
they used the customer complaint forms as intended for a secondary surveillance method.
Navy security personnel’s proper use of the complaint form would document contractor
discrepancies and Government oversight after hours and when the QAE was unavailable.
NAVFAC facility support personnel should implement a customer complaint program.
In addition, Navy security personnel should attend QA training that would allow them to
act as auxiliary QAEs.

Contractor Performance at NWS Earle
Overall, the contractor performed satisfactorily as determined by Navy personnel. All
Navy personnel with whom we met—the commander, deputy commander, security
director, contracting officer, the FSCM, and the QAE—spoke favorably about the
contractor’s performance. Further, the performance documentation that we reviewed,
such as monthly performance reports, contractor invoices, contractor complaint forms,
contract discrepancy reports (CDRs), FSCM recommendations, and contractor appraisals,
supported such statements. All of the 39 full-month and 2 half-month performance
reports that the audit team was able to obtain for the 46-month period (March 2004-
December 2007) contain satisfactory ratings. Only 13 of the 46 reviewed invoices
withheld a portion of payment for nonperformance, and all portions withheld were for
minimal dollar amounts. The Navy has prepared only one customer complaint form and
two contract discrepancy reports since the start of the contract. In addition, the
contracting officer made positive referrals for other contract work. However, because of
improper QA procedures and incomplete documentation, we could not determine whether
the contractor performed satisfactorily.

Monthly Performance Reports
The QAE rated the contractor’s performance as satisfactory on the 39 full-month and
2 half-month performance reports that we reviewed for the 46-month period, March 2004
through December 2007. At the end of each month, the QAE prepares a performance
report detailing the contractor’s work. The performance report is based on the daily



                                           24
reports prepared by the QAE. The QAE uses those daily reports to assign the contractor
a monthly grade of excellent, satisfactory, or unsatisfactory.

The contractor receives an unsatisfactory rating if its defect rate exceeds the maximum
allowable defect rate. The defect rate is calculated by taking the number of defects
observed for a work requirement and dividing it by the total population of that work
requirement in a month. The QAE’s documentation revealed that, for the 39 full-month
and 2 half-month performance reports that we reviewed, the contractor never exceeded
the maximum allowable defect rate for services performed and never received an
unsatisfactory rating.

Contractor Invoices
The Navy made only minor deductions to the contractor’s invoices for contractor
nonperformance. When the contractor does not perform in accordance with the contract,
the Navy deducts from the amount of the monthly invoice it receives from the contractor.
The FSCM calculates the deduction from the invoice amount by taking the hourly
payment figure specified in the contract for the service not performed, multiplying that
figure by the hours of nonperformance, and then assessing liquidated damages. For
46 months (March 2004-December 2007), the Navy made only 13 deductions to the
contractor’s invoice amounts, for a total of about $4,500. During those 46 months, the
Navy paid the contractor $16.3 million for contract services. The $4,500 in deductions
represented only 0.03 percent of the total contract cost for those 46 months.

Customer Complaints
Over a 46-month period, Navy personnel filed only one customer complaint against the
contractor. The security director at NWS Earle filed the complaint when a background
check revealed that an access badge had been issued to a person employed by a services
contractor at NWS Earle for whom an arrest warrant had been issued. The investigation
into the incident revealed that the contractor did not err in providing the badge, because
the badge allowed only “escort only” access to the base. The small number of customer
complaints filed with the Navy indicates either that Navy personnel did not witness the
contractor performing below standards or that NAVFAC facility support personnel did
not fully implement a customer complaint program.

Contract Discrepancy Reports
From March 2004 through February 2008, Navy personnel prepared only two CDRs
according to the monthly performance reports. Although the contract does not require the
use of CDRs, the QAP states that CDRs are a useful tool to assess contractor
performance. Navy personnel prepare a CDR when the contractor violates the contract
through nonperformance or incorrect performance of duties. On each monthly
performance report that the QAE prepares, the QAE must report the number of CDRs
issued to the contractor. The two CDRs prepared by the Navy indicate either that the
contractor was consistently performing in accordance with the contract or that Navy
personnel were not using CDRs.




                                            25
Contracting Officer Evaluations
The contracting officer at NWS Earle has more than 20 years of experience working on
service contracts. The contracting officer’s evaluations have provided positive
recommendations regarding the contractor and its performance. In two referrals the
contracting officer stated that the current contractor, when compared with previous
security guard contractors, was the best performing and “good to work with.” The
contracting officer has stated in two contractor performance assessment reports that the
contractor has performed all duties in a timely, safe, and efficient manner. The
contracting officer has also stated in the reports that:

               The contractor continues to provide well trained, knowledgeable, and
               safety minded personnel in performing all duties of providing security
               functions. Management and supervision is maintained at a high level
               with communications toward the customer highly satisfactory.

Follow-On Contract
The contract for security guard services at NWS Earle was in its final option year and
was scheduled to expire on October 1, 2008. On October 1, 2008, NAVFAC Mid-
Atlantic issued a change order to extend the period of performance by exercising an
option for 6 additional months in accordance with FAR 52.217-8, “Option to Extend
Services.” The Navy plans to award a new contract for security guard services for NWS
Earle. Navy should incorporate the report’s recommendations in the regional contract.

According to personnel from Commander, Navy Installations Command, the Navy plans
to perform Government oversight according to Commander, Navy Installations
Command Instruction 4860.1, “Nomination Training and Certification of Senior
Performance Assessment Representatives (SPARS), Assistant SPARS, and Performance
Assessment Representatives (PARS) for Security Services Contracts,” April 30, 2008, for
the new security guard services contract. The objective of the instruction is to provide
proper oversight of all Commander, Navy Installations Command security services
contracts by training and appointing qualified Government personnel to assist the
contracting officer in the administration of the contracts, and to institute a program to
validate the competency and work of those assigned. The instruction also states that
contract security services require close and continuous coordination among the
contracting officer, the senior performance assessment representative, the contractor, and
the activity receiving the services. Under the plan, Navy security personnel will have a
greater role in contractor performance assessment.

Conclusion
Navy QA and security personnel did not adequately document their oversight of the
contractor at NWS Earle. NAVFAC personnel responsible for QA used an improper
surveillance method to oversee the contractor and observed the contractor less than one-
third of the time that the contractor performed security services. NWS Earle security
personnel provide security services around the clock for a large installation. However,
Navy security personnel did not adequately document their oversight efforts. We could
not determine whether contractor performance was satisfactory because of improper QA


                                                26
procedures and inadequate documentation. Updating QA procedures to reflect the
available QA resources and requiring Navy personnel to document their oversight would
lead to more effective contractor oversight.

Navy Corrective Actions
NAVFAC Mid-Atlantic provided a revised QAP that includes procedures for random
sampling. Implementation of the new QAP in addition to Commander, Navy
Installations Command Instruction 4860.1 should improve Government oversight of
contract security guard services at NWS Earle.

Recommendations, Navy Comments, and Our Response
B.1. We recommend that the Commander, Navy Installations Command ensure that
this report’s recommendations are included in the requirements for future security
guard services contracts.

Navy Comments
The Commander, Navy Installations Command concurred and commented that the
Command is designing new software for security guard contracts that will comply with
all report recommendations. The target completion date for this software is June 30,
2009.

Our Response
The comments of the Commander, Navy Installations Command are responsive. No
additional comments are required.

B.2. We recommend that the Commander, Naval Facilities Engineering Command,
Mid-Atlantic direct the facilities support contract manager at Naval Weapons
Station Earle to:

      a. Revise the quality assurance plan to comply with Navy guidance and the
performance environment, and implement an appropriate surveillance method.

Navy Comments
Naval Facilities Engineering Command, Mid-Atlantic, responding through the
Commander, Navy Installations Command, concurred and commented that the quality
assurance plan has been revised and was incorporated in the contract in November 2008.
Quality assurance will include unscheduled random sampling. In addition, scheduled
random sampling will be used to provide oversight on a 24-hour/7-day-a-week process.
Military police will also perform inspections on nights and weekends.

Our Response
The comments from the Naval Facilities Engineering Command, Mid-Atlantic are
responsive. No additional comments are required.




                                          27
       b. Provide required training to quality assurance personnel.

Navy Comments
Naval Facilities Engineering Command, Mid-Atlantic, responding through the
Commander, Navy Installations Command, concurred and commented that the quality
assurance evaluator is qualified to perform quality assurance for the contract because he
is an experienced facility support contract quality assurance evaluator who had training in
1989 and related training in June 2006. Further, the quality assurance evaluator provided
instruction to the security department’s Master at Arms, who now performs selected
after-hour inspections (see Recommendation B.2.a.).

Our Response
The comments from the Naval Facilities Engineering Command, Mid-Atlantic are
partially responsive. During the audit, neither the facility support contract manager not
the quality assurance evaluator could provide documentation of any related training that
the quality assurance evaluator attended in the past 15 years. The Commander, Naval
Facilities Engineering Command should reconsider and provide additional comments to
the final report.

       c. Implement a customer complaint system.

Navy Comments
Naval Facilities Engineering Command, Mid-Atlantic, responding through the
Commander, Navy Installations Command, concurred and commented that the quality
assurance evaluator meets with the customer regularly and receives and addresses
customer complaints verbally or through e-mail.

Our Response
Although the Naval Facilities Engineering Command, Mid-Atlantic concurred, we do not
consider the comments responsive. We agree that the location of the security manager
and the quality assurance evaluator offices encourages regular communication and
discussion of contractor performance. However, the revised quality assurance plan
requires every customer complaint to be investigated, validated, resolved, and
documented on the customer complaint form. The complaint form can be used to
document contractor performance, which can then be used as a basis for deductions from
contractor payments for unsatisfactory performance when necessary. We request that the
Commander, Naval Facilities Engineering Command, Mid-Atlantic provide a response to
the final report on the specific actions the Command will take to establish a customer
complaint program.




                                            28
B.3. We recommend that the Commander, Naval Weapons Station Earle require
that the Security Director direct security personnel to:

       a. Document their oversight of the contractor.

Navy Comments
The Chief of Staff, Navy Region Mid-Atlantic, responding for the Commander, Naval
Weapons Station Earle, concurred and commented that, beginning in October 2008, the
Naval Weapons Station Earle security director directed assigned security personnel to
conduct and document quality assurance spot checks on the contractor during the second
and third shifts.

Our Response
The comments of the Chief of Staff are responsive. No additional comments are
required.

       b. Attend training that will allow them to act as auxiliary quality assurance
evaluators.

Navy Comments
The Chief of Staff, Navy Region Mid-Atlantic, responding for the Commander, Naval
Weapons Station Earle, concurred in principle and commented that the Naval Weapons
Station Earle security department is not funded, staffed, or responsible to conduct quality
assurance over the contractor. Further, any additional quality assurance procedures
performed by the Naval Weapons Station Earle security department would compromise
the installation’s force protection capabilities. The Chief of Staff stated, however, that
additional personnel will be assigned to conduct contractor performance assessments
after the Commander, Navy Installations Command implements a Most Efficient
Organization under its nationwide A-76 Commercial Activity competition. In principle,
the Chief of Staff agrees that personnel completing the performance assessments should
also perform contractor quality assurance; however, personnel resources cannot be
identified until April 2009.

Our Response
Although the Chief of Staff concurred only in principle, the comments are responsive.
No additional comments are required in light of the changes that will result from the
Commander, Navy Installations Command’s implementation of a Most Efficient
Organization; from the implementation of Commander, Navy Installations Command
Instruction 4860.1, which identifies the roles and responsibilities of performance
assessment representatives; and from the performance of spot checks by Naval Weapons
Station Earle security personnel (see Recommendation B.3.a.).




                                            29
30
Appendix. Scope and Methodology
We conducted this performance audit from January through November 2008, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit at the request of Congressman Christopher H. Smith to review
the Navy’s administration and the contractor’s performance of the security guard services
contract at Naval Weapons Station Earle, New Jersey. We did not assess the overall
security procedures and safety at NWS Earle. We did, however, review the contract and
the administration of the contract to see whether they conform to Federal regulations.

Specifically, we reviewed contract N62472-03-D-0803 with Myers Investigative and
Security Service, Inc. As of September 2008, the contract estimated value was
$20.7 million. We reviewed the contract to determine whether the Navy was
administering the contract in accordance with the FAR and Navy guidance. In addition,
we determined whether the contractor was performing in accordance with the contract.
We focused on the contractor’s quality control procedures, the completion of employee
background checks and functional training, and overall performance of assigned duties.
Also, we reviewed the specific allegations that the contractor did not perform background
checks, provide adequate staffing, or provide proper training. We also reviewed an
allegation about security flaws at NWS Earle that appeared in a local newspaper.

We reviewed FAR Part 46, “Quality Assurance”; FAR Part 43, “Contract Modifications”;
FAR Part 42, “Production and Surveillance and Reporting”; FAR Part 37, “Service
Contracts”; FAR Part 6, “Competition Requirements”; Office of the Chief of Naval
Operations Instruction (OPNAVINST) 5530.14 C and D; the “Facility Support Contract
Management Manual”(MO-327); and Commander, Navy Installations Command
Instruction 4860.1, “Nomination Training and Certification of Senior Performance
Assessment Representatives (SPARS), Assistant SPARS, and Performance Assessment
Representatives (PARS) for Security Services Contracts.”

We interviewed the following personnel at NWS Earle, New Jersey: the commander, the
security director, the FSCM, the contract specialist, and the QAE. We also contacted
NAVFAC contracting personnel. In addition, we met with the contractor’s guard force
manager and the training officer.

We obtained and reviewed the following Navy and contractor information from
NWS Earle: contract N62472-03-D-0803, monthly performance reports, QA daily
reports, desk journals, incident logs, vulnerability assessments, incident reports, customer
complaint forms, contractor performance assessment reports, contractor quality control
plan, contractor employee training records, contractor daily activity reports, contractor



                                            31
vehicle logs, contract discrepancy reports, contractor employee background checks, and
Phase I and Phase II training guides.

We judgmentally selected a sample of 25 of 70 contractor employee names listed on the
desk journals dated October 1, 2006; May 10, 2007; and March 6, 2008. We also
judgmentally selected an additional 20 contractor employees from a current employee
listing of 106 names dated May 7, 2008. We used those 45 names to review contractor
training records and background security checks.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Army Audit
Agency, and the Naval Audit Service have issued four reports discussing security guard
service contracts. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov; the other reports shown below are not available over the internet.

GAO
GAO-06-284, “Contract Security Guards,” April 2006

Army Audit Agency
A-2007-0108-ALO, “Installation Contract Guards,” April 4, 2007

A-2006-0029-ALA, “Funding Contract Security Guards at Army Ammunition
Installations,” December 21, 2005

Naval Audit Service
N2005-0034, “Staffing of Security Functions at Naval Installations,” March 23, 2005




                                           32
Department of the Navy Comments




                  Click to add JPEG file




                                 33
Click to add JPEG file




               34
Click to add JPEG file




               35
Click to add JPEG file




               36
Click to add JPEG file




               37
Click to add JPEG file




               38
Report No. D-2009-045             January 23, 2009




        Security Guard Services Contract at
           Naval Weapons Station Earle
